No. 20-148
IN THE

Supreme Court of the United States
MARVIN WASHINGTON, ET AL.,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.,
Respondents.

____________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s Order of April 15,
2020) that I have, this 4th day of September, 2020, served the Brief of Americans for
Safe Access as Amicus Curiae in Support of Petitioners upon each party separately
represented in this proceeding by causing an electronic copy of the same to be
delivered to counsel of record at the e-mail address listed below:
Michael Steven Hiller
Hiller, PC
641 Lexington Avenue, 29th Floor
New York, NY 10022
mhiller@hillerpc.com
Counsel of Record for Petitioners
Jeffrey B. Wall, Acting Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondents
In accordance with the Court’s April 15 Order, I certify that petitioners have
consented to accepting electronic service. I also certify that, on this date, I served
three copies of the Brief of Americans for Safe Access as Amicus Curiae in Support of
Petitioners upon respondents, by causing them to be deposited with the United States
Postal Service, with first-class postage prepaid, addressed to counsel of record for
respondents listed above.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have caused
electronic copies of all documents to be filed with the Clerk.

Andrew Kim
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000
September 4, 2020

Counsel for Amicus Curiae

2

